HHS/OIG, Audit -"Oversight and Evaluation of the Fiscal Year 2004
Hospital Payment Monitoring Program,"(A-03-04-00008)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Oversight and Evaluation of the
Fiscal Year 2004 Hospital Payment Monitoring Program," (A-03-04-00008)
November 15, 2004
Complete
Text of Report is available in PDF format (179 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Centers for Medicare and Medicaid Services (CMS) developed the Hospital Payment Monitoring Program (HPMP) primarily
to establish the Medicare fee-for-service paid claims error rate for inpatient acute care hospital services.  The
objectives of this audit were to determine whether (1) HPMP controls were adequate to ensure that contractors followed
established procedures for admission-necessity and diagnosis-related group (DRG) validation screenings and for quality
control reviews and (2) HPMP contractors accurately calculated and reported the net error amounts for claims with DRG coding
changes made by the quality improvement organizations.  The HPMP contractors generally had appropriate controls to
ensure that admission-necessity and DRG validation screenings and quality control reviews were performed in accordance
with established procedures.  As to our second objective, the methodology for calculating net error amounts was not
accurate for some of the claims we reviewed.  Our calculation of the net error amounts for DRG coding changes was
based on CMS's standard pricing information (known as PRICER software).  An HPMP contractor, on the other hand, used
an alternate methodology, which was not always accurate.  Nevertheless, our sample projection showed that the net
error amount differences were not significant in relation to the HPMP projection of erroneous Medicare payments for FY
2004.  We recommended that CMS direct the HPMP contractors to use the most current PRICER software to calculate error
amounts for DRGs revised by the quality improvement organizations.  CMS officials agreed with the audit results and
the recommendation.